<html>
<title> - HOUSE OFFICER PRIORITIES FOR 2016 AND BEYOND</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
              HOUSE OFFICER PRIORITIES FOR 2016 AND BEYOND

=======================================================================

                                HEARING

                               before the
                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                    3ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
   
   
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-762 PDF                     WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001 
   
   
   
   
   
   
   
   
                   COMMITTEE ON HOUSE ADMINISTRATION

                 CANDICE S. MILLER, Michigan, Chairman
                 
             
GREGG HARPER, Mississippi           ROBERT A. BRADY, Pennsylvania  
RICHARD NUGENT, Florida              Ranking Minority Member                    
RODNEY DAVIS, Illinois              ZOE LOFGREN, California  
BARBARA COMSTOCK, Virginia          JUAN VARGAS, California 
MARK WALKER, North Carolina
            
 
                           Professional Staff
                           
                      Sean Moran, Staff Director
                           
                     Kyle Anderson, Minority Staff Director
             

    
  


              HOUSE OFFICER PRIORITIES FOR 2016 AND BEYOND

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:01 p.m., in Room 
1310, Longworth House Office Building, Hon. Candice S. Miller 
[chairman of the Committee] presiding.
    Present: Representatives Miller, Harper, Nugent, Davis, 
Comstock, Walker, Brady, and Lofgren.
    Staff Present: Sean Moran, Staff Director; John Clocker, 
Deputy Staff Director; Bob Sensenbrenner, Deputy General 
Counsel; Reynold Schweickhardt, Director of Technology Policy; 
John L. Dickhaus, Legislative Clerk; Erin McCracken, 
Communications Director; Katie Ryan, Professional Staff; Brad 
Walvort, Professional Staff; Kyle Anderson, Minority Staff 
Director; Matt Pinkus, Minority Senior Policy Advisor; Khalil 
Abboud, Minority Deputy Staff Director/Director of Legislative 
Operations; Mike Harrison, Minority Chief Counsel; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for today's hearings on the operations and 
priorities of the House officers. The hearing record will 
remain open for 5 legislative days so that members might submit 
any materials that they wish to be included.
    When our Founding Fathers drafted our Constitution, the 
first institution of government that was created in Article I, 
Section 1, was the House of Representatives. Unlike the Senate, 
where Members can be appointed to vacancies, the Constitution 
requires that no Member shall serve in the House who has not 
been elected by the people, and each Member must stand for 
reelection every 2 years to make this body the closest to the 
people. That is why the House is known as the people's House.
    The last clause of Article I, Section 1, gives the House 
the power to choose our Speaker and other officers of the 
House. We are meeting today to hear from the officers of the 
House that were elected at the beginning of the 114th Congress 
about current House operations and priorities that each of the 
officers set forth to accomplish during this Congress, as well 
as in the years to come. The House officers are partners with 
us as we work for the American people to implement their agenda 
to move this great Nation forward.
    While our primary purpose as Members is to legislate and be 
the voice of our constituents, we also must, of course, be good 
stewards of the institution. The House officers are integral to 
meeting the daily and long-term needs of the Congress' work and 
the physical makeup of the institution itself. Each officer is 
sworn to do their very best to support the vital duties of this 
great legislative body.
    The House officers our Committee will hear from today are 
the Clerk of the House, Karen Haas; the House Sergeant at Arms, 
Paul Irving; and the Chief Administrative Officer, Ed Cassidy.
    For more than 200 years, since the First United States 
Congress met, our House officers have been asked to take on all 
kinds of duties to better support and improve the overall 
function of our institution. In 1789, Congress' first order of 
business was the election of its first Speaker. And its second 
order of business was the election of the first Clerk of the 
House.
    The Clerk of the House performs invaluable and essential 
duties that keep the legislative process in the House running 
smoothly. Her responsibilities include everything from 
processing introduced bills; to operating the electronic voting 
system; to transcribing floor and committee proceedings; and 
ultimately compiling and making available to the public all of 
the legislative proceedings and associated documents in both 
hardcopy and electronic formats as well.
    The Clerk serves as our official record keeper and 
protector of the House's collection of art, archives, and 
history. This responsibility requires great coordination, 
cooperation, and consultation with individual committees and 
certainly Members as well of the Office of the Historian and 
National Archives. The office works very diligently to make the 
legislative and historical records accessible to the public, 
not only now but in formats that will last even as technology 
evolves.
    Finally, the Clerk's Office is charged with carrying out 
the House's public disclosure responsibilities and does so 
through the operation and maintenance of the House's Financial 
Disclosure Filing System and the Lobbying Disclosure System. 
The Clerk's Office plays a vital role in the House's efforts to 
provide transparency in every action that we take and to ensure 
that both legislative and Member information is being 
accessible to the public. Docs.house.gov, which serves as an 
online one-stop shop for legislative information, is just one 
example of the efforts that the Clerk's Office undertakes.
    Our Committee looks forward to hearing from the Clerk on 
her priorities and planned improvements for both House 
operations and public access to legislative information.
    The position of Sergeant at Arms of the House was created 2 
weeks after the Clerk's position in 1789. The Sergeant at Arms 
is the chief law enforcement and protocol officer in the House 
and is charged with securing and keeping order within the 
Chamber. Duties of the position include all manner of security 
issues ranging from overseeing the House floor; to ensuring 
that the proper identification is issued, both to Members and 
to staff; to coordinating with other law enforcement and 
security agencies to monitor potential threats to Members of 
Congress and the complex here in the Capitol.
    The Sergeant at Arms manages state visits, including 
responsibilities related to security when the President or 
other dignitaries visit during joint sessions. The Sergeant at 
Arms develops protocols and programs to keep Members, staff, 
and visitors safe in any potentially dangerous event, and 
ensures that the Congress can accomplish its legislative work 
in a safe environment and in full view of the American public.
    Mr. Irving serves as a member of the U.S. Capitol Police 
Board, responsible for policy oversight over the U.S. Capitol 
Police. Just last week, this Committee, as you know, Paul, 
heard from the Chief of Police. We certainly look forward to 
your perspective as well on current procedures and future 
improvements to both our campus and district office security as 
well.
    The Chief Administrative Officer position, often 
abbreviated as CAO, which is what we are going to refer to it 
here, was established in 1995 at the beginning of the 104th 
Congress. The CAO is responsible for providing administrative, 
financial, and technical support of the entire House. This 
office is also charged with managing the House's computer 
system and technology infrastructure; finances; human 
resources; procurement; budgeting; staff training; and is 
ultimately responsible with properly outfitting offices, both 
here in D.C. as well as in the districts, so that each can run 
at its maximum efficiency. And of particular note, the CAO 
manages the House finances, making sure that the House pays its 
bills on time and keeps good track of the funds and assets 
entrusted to us by the taxpayers.
    Also, the CAO runs the House cybersecurity program. We are 
going to be interested to hear how the House must continue 
certainly to evolve our cyber posture to manage emerging 
threats.
    Additionally, the CAO plays a major role in providing 
logistic support for the House offices by running the House 
supply store, managing our concessionaire contracts, and 
provisioning furniture as well. Because of that broad logistics 
role, the CAO is very engaged in the Cannon renovation. I am 
sure we will be hearing something about that as well and their 
coordinated efforts with the Architect of the Capitol's Office 
on that project.
    The CAO also provides a number of unique services that are 
critical to House operations. The House Recording Studio, a 
business unit within the CAO, provides public access to the 
House floor and committee proceedings. The office supports the 
media galleries, ensuring open and accessible coverage of the 
House.
    Finally, the CAO also supports the House's Wounded Warrior 
Program, which provides Members access to a remarkable group of 
veterans who are continuing their service to our country.
    Again, each House officer is integral to furthering 
effective governance while protecting taxpayers' dollars and we 
are very, very interested in hearing from all of them because 
good policies provide for effective and accountable government. 
Together, the House continues to work on ways that we can all 
prioritize our resources and rein in costs; all while we uphold 
our commitment to increase the level of transparency, 
accountability, and public access to our operations for many 
years to come.
    So I want to thank all of the witnesses for appearing here 
today.
    I would now recognize our ranking member.
    Mr. Brady. Thank you, Madam Chairman.
    I would like to join with my friend Chairman Miller in 
welcoming our witnesses today. As you know, the Committee on 
House Administration has jurisdiction over the administration 
and operation of this institution. And your respective 
organizations, along with the House Superintendent, in many 
ways form the operational backbone of the House.
    You have been entrusted with ensuring the safety and 
security of visitors, Members, and staff; maintaining integrity 
of our legislative system; and making sure that our bills are 
paid. And for that, we are most appreciative.
    I would be remiss if I did not specifically mention the 
dedication and invaluable service of the people in your 
respective organizations. Their contributions often go 
unrecognized, but I am sure that you would agree that you could 
not succeed without them, nor could this House.
    I look forward to hearing your testimony.
    But I would like to make one note, Madam Chair, that I am 
looking at the Honorable Ed Cassidy sitting up there at the 
front of the desk, and for years, he was back in that corner. 
And I don't know who the hell he was watching, me or you, but 
he was watching somebody. But we got you right now. Now we are 
watching you, sir. Thank you.
    The Chairman. I thank the gentleman.
    Let me give a very quick, more formal introduction of our 
three testifiers.
    We will start with the Clerk. Karen Haas was sworn in as 
the Clerk of the House of Representatives on January 5, 2011. 
This is her second occupancy of this position, having 
previously served as the House Clerk from 2005 to 2007. She has 
a very strong working knowledge of the House, as she served on 
Capitol Hill as a legislative staffer, a floor assistant to a 
former Speaker, and a staff director for a House committee.
    Paul Irving was sworn in as the Sergeant at Arms of the 
U.S. House of Representatives on January 17, 2012, during the 
second session of the 112th Congress. He is the 36th person to 
hold this position since 1789. Previously, he served as an 
assistant director of the U.S. Secret Service from 2001 to 2008 
and served as a special agent with the Secret Service for 25 
years.
    Ed Cassidy was elected to the post of CAO in January of 
2014. Prior to serving as the CAO, Mr. Cassidy worked for 7 
years as a senior leadership aide to Speaker Boehner, most 
recently as Director of House Operations. He has served more 
than three decades in Federal Government service, largely here 
in this House but also in the executive branch.
    Again, we welcome you all and look forward to your 
testimony.
    With that, the chair would recognize the Honorable Karen 
Haas.

STATEMENTS OF THE HONORABLE KAREN L. HAAS, CLERK, UNITED STATES 
    HOUSE OF REPRESENTATIVES; THE HONORABLE PAUL D. IRVING, 
 SERGEANT AT ARMS, UNITED STATES HOUSE OF REPRESENTATIVES; AND 
THE HONORABLE ED CASSIDY, CHIEF ADMINISTRATIVE OFFICER, UNITED 
                STATES HOUSE OF REPRESENTATIVES

            STATEMENT OF THE HONORABLE KAREN L. HAAS

    Ms. Haas. Chairman Miller, Ranking Member Brady, Members of 
the committee, thank you for the opportunity to testify before 
the committee today regarding the priorities of the Office of 
the Clerk for the upcoming year.
    As you know, my staff and I routinely meet with your 
committee staff, and we appreciate the support and feedback 
that we receive. To a large extent, the core responsibilities 
of the Clerk's Office remain constant from year to year. Our 
office is charged with supporting the legislative operations of 
the House and its committees, preserving and protecting the 
heritage of the House, and providing numerous public disclosure 
services.
    While our core responsibilities remain fairly constant, the 
manner in which we perform our work requires regular review to 
ensure that we are taking advantage of rapidly evolving 
technology that can improve the timeliness, accuracy, 
transparency, and public accessibility of our work product.
    One of the Clerk's most important responsibilities is 
recording, tallying, and publicly disclosing our floor votes 
cast in the House of Representatives. During the coming year, 
we will implement the next phase in a multiyear process of 
updating the electronic voting system used by the House. Our 
next step is to update the voting stations throughout the 
Chamber. We will replace our voting boxes and related wiring 
and will upgrade Member voting cards to be compatible with 
improved technology. In addition, we will also make plans to 
enhance the disclosure of vote results that the Clerk's Office 
makes publicly available online.
    We will also be working on a number of improvements to the 
Clerk's Web site in the coming year. We are focusing our 
redesign efforts on making information we provide on House 
floor activity more prominent and user-friendly for both 
internal users and the public that relies on our office to 
provide accurate, timely, and official information on the 
legislative activity of the House. We hope to deploy a fully 
redesigned site by the end of next year.
    The Clerk's Office also provides numerous legislative 
support services for our House committees. In the coming year, 
we will continue to work with this committee on your project to 
streamline and standardize the process for producing committee 
hearing reports.
    Management of official House records is also an important 
responsibility of our office. We will continue to work closely 
with the National Archives as they develop a plan to ensure 
that there is adequate and sufficient space to preserve House 
and Senate records in Washington in the medium and long term. 
Our goal is to ensure that congressional records continue to be 
archived in a manner that allows committees to access their 
records in a timely manner and to make House records publicly 
available for research, pursuant to House rules.
    We will continue to work closely with the House Historian 
as he writes a history of Asian and Pacific Islander Americans 
in Congress. This project was commissioned by the House and 
builds on the already published works on Black Americans in 
Congress, Women in Congress, and Hispanic Americans in 
Congress.
    We are also in the process of redesigning and enhancing the 
``Biographical Directory of the U.S. Congress,'' which provides 
historical information on every Member who has served. We have 
completed the requirements phase on the upgrade to the bioguide 
Web site, and we will move into the design and development 
phase when resources permit.
    Finally, the Clerk's Office is charged with administering a 
number of public disclosure requirements. Following passage of 
the STOCK Act in 2012, we undertook the design and development 
of the electronic filing system for all Financial Disclosure 
Statements and Periodic Transaction Reports. In May, we 
completed the second cycle in which the electronic filing 
system was available. We are pleased to deploy several 
improvements to the system, including the ability for filers to 
import information from previous electronic filings. In the 
upcoming year, we will provide technical assistance to the 
Committee on Ethics with its internal review system and 
continue to use feedback we receive from users to improve the 
system.
    Lastly, it is important to note that we depend on the 
professionalism, skill, and dedication of our staff as we carry 
out the roles in supporting the legislative operation of the 
House. In the Clerk's Office, we are fortunate to have many 
employees with decades of service, and their institutional 
knowledge is invaluable. We recognize the need to continue to 
provide professional development and cross-training 
opportunities.
    Our staff is also well positioned to provide training to 
House employees concerning research and record management, 
among other topics. We look forward to continuing those efforts 
with the CAO through the House Learning Center.
    Thank you for the opportunity to testify today.
    [The statement of Ms. Haas follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    The Chairman. Thank you so very much.
    The chair now recognizes Paul Irving. We are going to ask 
you to keep to 5 minutes since we are in a vote series here.

           STATEMENT OF THE HONORABLE PAUL D. IRVING

    Mr. Irving. I will. Thank you, Madam Chair.
    Good afternoon, Chairman Miller, Mr. Brady, and members of 
the Committee. I deeply appreciate the opportunity to appear to 
before you today to discuss the Sergeant at Arms' priorities 
for 2016 and beyond. I look forward to continuing to work 
closely with you and other members of the Committee throughout 
the 114th Congress.
    As the Committee is aware, as the chief law enforcement 
officer of the House, I am responsible for directing all 
security matters which relate to the House of Representatives. 
Together with the Senate Sergeant at Arms and the Architect of 
the Capitol, I serve as a member of the U.S. Capitol Police 
Board, which oversees the Capitol Police as well as establishes 
policies and guidelines which safeguard the Capitol complex and 
its occupants.
    I also work very closely with the other officers of the 
House, Karen Haas and Ed Cassidy.
    In the security arena, I devote considerable time to a host 
of ongoing priorities to ensure the safety of Members, their 
staff, and visitors to the House of Representatives. These 
priorities include threat and intelligence monitoring and 
analysis by reviewing all threats and intelligence directed to 
Members of the House of Representatives in Washington, in their 
district offices, or wherever they may be. I monitor events on 
the Capitol complex, such as demonstration activity, committee 
hearings, head of state visits, and major events taking place 
on the complex.
    Congressional delegations, or codels, are also monitored to 
ensure that the military and the Department of State provide 
adequate security in country. I monitor and review all security 
plans for Member-sponsored events off the Capitol complex, 
where Members and leadership may gather. And, of course, we 
ensure the security posture is maintained daily during each and 
every activity in the House of Representatives.
    Although I have submitted a more comprehensive testimony 
for the record with regard to our major ongoing initiatives for 
fiscal year 2016, I would like to mention a few of them 
briefly. One of our top priorities is airspace security. We are 
working closely with the Department of Defense, Department of 
Transportation, and Department of Homeland Security to ensure 
we have the most efficient and robust early detection, 
identification, and warning systems.
    With regard to garage security, we are working toward 100-
percent screening of all those who enter our House office 
buildings. We are also working on an initiative to safeguard 
our Chamber Galleries to ensure that all searches are conducted 
to prevent any potential disruption to those Galleries.
    Another important project that will utilize no additional 
manpower is the relocation of our appointments desks to ensure 
that all those entering the Capitol are vetted.
    Working in conjunction with the Capitol Police Board and 
members of the Capitol Police, our camera security initiative 
will ensure that all coverage of the exterior of the Capitol is 
taken care of by the end of this fiscal year.
    To enhance district office security, we are in the process 
of offering mail hoods to district offices so that district 
staff can open mail safely and securely in the confines of 
their own offices, and we are working toward enhancing 
literature and tools available through our Law Enforcement 
Coordinator Program. To further improve our response to 
emergencies on the Capitol complex, we are continuing to 
promote the importance of our office Emergency Coordinator 
Program and encourage every Member office to partake in that 
program.
    Aside from long-term initiatives, some of the areas that we 
are focusing on this year have been the State of the Union 
Address, several Gold Medal ceremonies, eight visits by heads 
of state, four joint meetings of Congress in the House Chamber, 
and the recent Memorial Day concert.
    There are a number of major events this year for which 
planning is underway. Primarily, the Speaker has extended an 
invitation to the Pope to address a joint meeting of Congress 
on September 24. This is the first such address delivered by a 
pontiff to Congress.
    In my role as a member of the Capitol Police Board, I spend 
considerable time attending to duties associated with oversight 
of the U.S. Capitol Police. This includes the protection, 
security, intelligence and threat assessment, counterterrorism, 
and emergency response and preparedness functions of the 
Capitol Police. This includes life-safety assessment and 
recovery relating to the continuity of Congress and the 
protection of individuals in the Capitol complex.
    I want to assure the Committee that I work very closely 
with the members of the Capitol Police Board, the Chief of 
Police, and his staff. And, of course, I report to you, 
leadership, and this committee on these critical issues so 
vital to the safety and security of all those Members, staff, 
and visitors to the House of Representatives.
    In closing, I would like to thank the Committee for the 
opportunity to appear before you to discuss some of my 
priorities for the current year, fiscal year 2016, and beyond. 
As always, I want to assure you of my deep commitment and that 
of everyone in my office of providing the finest possible 
service to the House of Representatives, while maintaining a 
safe and security environment for all.
    As noted, I have submitted my full testimony for the 
record. I will continue to keep the committee informed of my 
activities, and I will be happy to answer any questions you may 
have.
    [The statement of Mr. Irving follows:]
   
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    The Chairman. Thank you very much.
    Mr. Cassidy.

             STATEMENT OF THE HONORABLE ED CASSIDY

    Mr. Cassidy. Thank you, Chairman Miller, Ranking Member 
Brady, Congressman Harper, Ms. Lofgren.
    It is a real privilege today to join the Committee for this 
discussion of the priorities that we face together in fiscal 
year 2016. It is a special privilege to be here representing 
the hundreds of dedicated men and women professionals who serve 
in the Office of the Chief Administrative Officer.
    As the principal manager of House finances, information 
technology, physical property and equipment, and a wide range 
of other administrative and support services, the men and women 
in the Chief Administrative Office continually strive to carry 
out efficiently and effectively our wide range of 
responsibilities. And that imperative will grow even more 
compelling this year as the CAO launches costly but absolutely 
critical initiatives in cybersecurity, asset management, and a 
number of others that I would be happy to discuss with the 
committee.
    In the interest of time, however, and recognizing that 
votes have been ordered over in the House Chamber, I will 
suspend at this point and look forward to discussing those 
issues in detail with the committee or in the questions and 
answers.
    [The statement of Mr. Cassidy follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    The Chairman. Thank you very much.
    I really appreciate that.
    Before we adjourn here--and we will reconvene right after 
votes--let me just say that the purpose of this hearing was to 
provide for our due diligence with oversight, but really, in 
the most part the driving impetus for me was to be able to 
demonstrate how efficiently and effectively this House is being 
run and what a great team of House officers the Speaker has 
appointed for this Congress.
    In the Clerk's Office, the transparency and the different 
things that you have done there are just remarkable I think.
    Certainly, Mr. Irving, to be able to look at the challenges 
that our Nation is facing here on this campus and to be so safe 
and secure is, again, just a mark of yourself and your entire 
time.
    Mr. Cassidy, of course, we just came through a clean audit. 
I know there are other things that the media wants to write 
about here sometimes, but that is a wonderful, wonderful 
achievement that that has happened with your team and working 
together with everyone.
    So I look forward to really helping to amplify what I think 
is an extremely positive team of House officers and the 
remarkable work that is happening here.
    At this time, I would recess the hearing. The Committee 
will reconvene right after the vote series.
    [Recess.]
    The Chairman. Okay. We will reconvene the Committee on 
House Administration and continue the hearing on the House 
officers. A quorum is present, so we can proceed.
    Clerk Haas, I think I will start right in with you.
    Ms. Haas. Okay.
    The Chairman. I appreciated very much and was interested in 
your testimony about the electronic voting system, which 
obviously we all have a huge interest in. Maybe you could just 
flesh out for us a bit about the system and some of the 
challenges that you are facing. I know that we had a little bit 
of a chat about how some of the technology is new, and some of 
it is old. What are some of the various problems that you are 
looking at there and what do you think you need to do and how 
we can be of assistance with that? Obviously, we can't have any 
incidents there.
    Ms. Haas. I appreciate that. We have been in a multiyear 
process of updating the electronic voting system. In 2009 and 
2010, the summary boards and the main display boards were 
upgraded.
    What we have discovered is, you know, one of the last 
pieces on the floor to be upgraded are the voting stations 
themselves as well as the wiring. So we are undertaking a 
project to update both the wiring and the voting stations. We 
have started that process. We expect to be able to begin 
testing in August of next year.
    As part of that, we will also be upgrading the cards, the 
voting cards that Members use, the technology. And the current 
cards are quite old. So it is an opportunity for us to look at 
new technologies and other potential ways that we can use those 
cards.
    So we are beginning the process now. As I mentioned, we 
expect to be able to test in August of next year and then would 
deploy at the end of the Congress or the beginning of the new 
Congress. But that will be in coordination with this committee 
and with leadership.
    The Chairman. You know, I guess, just as Members, we have 
all gotten used to wherever the voting stations are at. So I 
don't know if you have any plans to move those. Every time we 
have a series of 2-minute votes, I sometimes think it would be 
good to have a voting station in the middle of some of those 
rows, but I don't know if that is even possible.
    Ms. Haas. So, currently, under our current situation, it is 
not possible. We are maxed out. We have 46 stations throughout 
the Chamber. With this new upgrade, we will be able to have 
that option if leadership decides they would like additional 
stations. That is something that has been coordinated over the 
years with leadership on both sides of the aisle. So we are 
open to providing additional stations if that is what the 
decision is.
    The Chairman. Okay. Very good.
    To the Sergeant at Arms, I would like to ask you a little 
bit about a hearing we had a couple of weeks ago with Chief 
Dine. One of the things that all the Members were interested in 
was the gyrocopter incident. I guess I would just ask you, do 
you have any lessons learned that you have been participating 
in since that time of how we can better protect the campus 
here?
    One of the things, I am not sure if I am advocating for 
this, but I did ask the Chief about it, and here I think I am 
putting my Homeland Security hat on, but if you look along the 
southern border and the way that we have been able to utilize, 
actually, in some cases surplus DOD goods that have been 
particularly effective at border security with the eye in the 
sky. As I say, I don't think I am advocating for some of the 
blimps or other equipment, the dirigibles that you can see, but 
some of the UAVs that they have available now, the VADERs, et 
cetera, are incredibly effective. I am not sure, again, whether 
that is something that could be utilized here, but perhaps. 
What is your thought on equipment like that?
    Mr. Irving. Thank you, Madam Chairman.
    Yes, as a matter of fact, even before the gyro incident, 
which obviously generated a fair amount of attention here, we 
were looking at the airspace security. It was a pretty 
aggressive initiative to improve some of the gaps that we have. 
We will have to get into more of a classified session to get 
into some of that. But that was a priority for us. We work very 
closely with the Department of Defense, Department of 
Transportation, and Homeland Security with some continuing 
efforts in that endeavor. There will be a couple more things 
coming online, again, which I will allude to in a classified 
briefing.
    I want the Committee to be aware of the fact that the 
Capitol Police Board and the Capitol Police are looking at this 
and working very closely with Defense and the other executive 
branch agencies on this issue.
    You raise an excellent point in terms of the southwest 
border. There are systems in place down there that we are very 
well aware of. It is a different pattern here in a congested 
urban environment versus something that is a little less 
congested. So there are more challenges to airspace security in 
this national capital region. Having said that, we have some 
countermeasures in place, and we will have some additional ones 
in the not too distant future.
    I want to assure you that the couple of themes, here, from 
the perspective of airspace security, which is the early 
identification and warning, we are working aggressively on 
that. In terms of the Capitol Police's ability to conduct 
certain countermeasures, their weapons and use-of-force policy, 
that is a separate issue which we have also addressed. Again, 
we can get into that in more detail in a classified session.
    We also have not only the low and slow aircraft but also 
the drone issue. That is another facet of this that we are also 
working on. We also have some classified systems in place that 
we can chat about further.
    I want to assure the committee that the Capitol Police 
Board, Capitol Police were aggressively working this with our 
partners in military and other executive branch agencies.
    The Chairman. You know, since you mention the Capitol 
Police Board, let me just ask a question. If you don't want to 
answer it, you don't have to. Maybe I am just making a comment 
here, but I am looking at the construct of the Capitol Police 
Board, which has been in place for 150 years; and maybe it made 
sense then. I am not sure that it does right now. So you have 
yourself, then your Senate counterpart, and then the Architect 
of the Capitol on the police board.
    I just think from a management wiring diagram, if you will, 
organizational chart, I am not sure that serves us as well as 
perhaps it should. So I am almost throwing this out to the 
other members of the Committee to contemplate that. I don't 
know if you have any comment about that, or since you sit on 
the police board you would rather not say. I totally 
understand, but I personally have a little bit of consternation 
about whether or not it is the best system.
    Mr. Irving. I certainly feel free to comment on it if you 
like, Madam Chair. I speak to Kim Dine on a daily basis on 
issues relating to House-wide interests, security and protocol 
interests. The Senate Sergeant at Arms does the same relative 
to the Senate. But the Senate Sergeant at Arms and I deal with 
Kim Dine, again, on a daily basis relative to security for the 
entire complex. And I think it is a good dynamic, the 
relationship that I have with the Senate Sergeant at Arms to 
deal with security campuswide. As you know, we have the Pope 
coming, joint visits, State of the Union, inaugurations, events 
that require campuswide security protocols. We have a lot of 
initiatives that are ongoing now that are campuswide, so I work 
very, very closely with the Senate Sergeant at Arms. But I also 
filter many, many, many comments, requests, concerns from 
Members, House Members, to the Chief so that his phone is not 
ringing from every Member. He will come to me. I will speak to 
them about it. I will express those concerns to the Chief.
    I really want to assure the committee that the Capitol 
Police Board does exert robust oversight on the Chief. We are 
with him each and every day. I know that there has been a 
number of things in the media lately that cause concern. But we 
have talked to the Chief before a lot of these issues became 
public and certainly afterwards. And aside from, obviously, 
both Sergeants at Arms, the Architect of the Capitol is a 
critical component because a lot of the security initiatives 
that we want to put in place deal with the infrastructure of 
the Capitol and the office buildings. And the Architect has, 
obviously, jurisdiction over that. I would say it is a pretty 
good construct, but again, I am on the Board.
    The Chairman. Okay. I appreciate that.
    The chair recognizes our ranking member.
    Mr. Brady. Thank you, Madam Chairman.
    The luxury you have of asking a question behind you is that 
I don't have to ask any because great minds think alike. You 
would ask the questions that I would ask, and you already 
answered them.
    But I want to say thank you to the Clerk and to the 
Sergeant at Arms and to the Chief Administrative Officer 
because I know you have a tough job dealing with our egos, 435 
of us, you know. I appreciate the job that you do. I appreciate 
the courtesy you show us on the floor every time we are there, 
which we are always there every day.
    Sergeant at Arms, thank you for being informative. You 
know, we don't get that much from the Chief. We have expressed 
that. But you always keep us informed of what is going on every 
second, every minute. And we do appreciate that. And I know 
that will continue. We thank you for that.
    And to the Chief Administrative Officer, thank you, you 
have been a friend for a lot of years. Thanks for what you do. 
And, again, dealing with all the egos that you have to deal 
with.
    The only question I would have is we are your oversight 
committee, so if there is anything you need us to do to make 
your job a little easier because when your job becomes easier, 
nobody comes and complains to us and causes us any problems. So 
is there anything you think that we need to do, whether it be 
right here now or anywhere on the floor? I see you always on 
the floor. You know where my office is. You just come to us, 
and whatever we can make it easier for you because I know it is 
tough enough, again, dealing with us, dealing with the egos 
that you have to deal with. So thank you, again, for all of you 
being here.
    Mr. Irving. Thank you. We appreciate very much your 
support.
    The Chairman. Mr. Harper.
    Mr. Harper. Thank you, Madam Chair.
    And thanks to each of you for the great work that you do. 
Unlike many entities that we might provide some oversight on, 
we have firsthand knowledge of what you do. And we appreciate 
the hard work. And what you do is not really--it is certainly 
not partisan. It is really not bipartisan. It is nonpartisan. 
And you make this place function very well. So we thank you for 
that. But we all want to do the very best we can, whatever that 
role is.
    And, you know, as a person who occupies an office in 
Cannon, we would obviously wish that we weren't going through 
that process.
    Mr. Cassidy, that is an incredible undertaking, past due, 
as you know, but coming along very nicely, a long process. But 
you have so much to deal with, each of you. And it is just one 
of the buildings that you have responsibility for.
    And but I want to say to, first, you, Mr. Cassidy, 
congratulations on the audit. That is not an easy 
accomplishment. Can you share a little bit of background on 
that for us on how that worked and your comments on that?
    Mr. Cassidy. Certainly, Mr. Harper. And thank you very much 
for those kind words.
    As was mentioned by the chairman in her opening remarks, 
the House recently received its 17th consecutive clean audit. 
These audits occur every year. They are conducted by an outside 
private auditing firm, a CPA firm. That firm is contracted for 
not by us but by the Inspector General of the House. And it is 
essentially a review of the House's financial managers. I don't 
know that it is unprecedented across the government, but 
certainly nowhere else in the legislative branch and nowhere in 
the executive branch of which I am aware--not even the Senate 
gets independent outside audits of its financial statements. 
But the House does.
    It is a very worthwhile exercise. It raises the confidence, 
we hope, of Members and the citizens you represent that the 
funds entrusted to the United States House of Representatives 
are spent effectively and efficiently and appropriately.
    And this audit, if you will, as any of you who have been in 
business know how daunting it can be to be audited by anybody. 
I had hundreds of auditors working for me in the executive 
branch, and I got a nonstop stream of calls from CEOs and other 
corporate officials complaining about the enthusiasm of our 
auditors.
    Our folks are on the other side of that. You know, our 
financial managers under the Chief Financial Officer of the 
House, Traci Beaubian, who is with me here today, they are on 
the receiving end of this annual financial audit. The audit is 
a report card, if you will. And Traci and her team welcome the 
opportunity to test themselves against the highest generally 
accepted accounting principles. And they welcome the fact that 
each and every year, those auditors, no surprise to any of you 
who have been audited, they find areas that can be improved.
    And as the chairman of this committee likes to say, the 
biggest room in any house is the room for improvement. Our 
financial staff, our accountants, our financial managers relish 
the opportunity not only to be tested against those standards 
but to have outside independent eyes point out areas where we 
can improve. And each and every year, our processes do improve 
as a direct result of that audit.
    I would be happy to talk later about some examples of that, 
the most current of which would be our Asset Management Reform 
Project that is underway right now.
    But I appreciate the kind words. Our folks live and breathe 
that about 9 months out of every year. And it is always a huge 
sigh of relief when we get that report. And this year's report 
was more encouraging than any in recent memory. So thank you.
    Mr. Harper. Congratulations. And to the team, 
congratulations.
    Mr. Irving, thank you for your hard work, your dedication. 
And it is a lot, and a great responsibility that you have to 
look at the safety of our Capitol complex and things that are 
there. But I would like to talk for just a moment, I only have 
just a little bit of time left, about the security needs in our 
district offices. I think there are over 800 district offices 
across the country and in the Territories. And so those are 
things that, you know, we all have concerns about. And I know I 
have discussed those with you in the past. I know the mail 
hoods have been discussed in the district offices. Can you just 
share a little bit about what you see is the things that we can 
do to improve our security in the district offices?
    Mr. Irving. Thank you very much, Congressman.
    I appreciate your kind words again. The district offices 
are certainly a challenge because as you indicate, there are 
over 800, actually over 900. We need to maintain relationships 
with each and every one of them. We can't be everywhere. So we 
have a robust program, the Law Enforcement Coordinator Program, 
whereby we ask staff in each district office to appoint someone 
to work with my office, to work liaison with local law 
enforcement.
    Any time a Member is going to make an appearance or do 
something in their district that could raise a certain profile, 
we like to ensure local law enforcement is apprised of that. 
District office security is critical. Resident security is 
critical. So we would like Law Enforcement Coordinators to 
contact our office. And we provide them guidance on a daily 
basis. We give them checklists, we give them tools that they 
may need to ensure that those district offices and the Members 
are as safe as possible.
    Mr. Harper. And I know for us and for you, threat 
assessment is always an ongoing situation because----
    Mr. Irving. Yes.
    Mr. Harper. Some are legitimate, some are not. And I know 
that is a difficult thing. But I want to say thank you for the 
job your office does. It works very well I know with our office 
for sure and others that I hear.
    And my time is up, so I yield back.
    Mr. Irving. Thank you very much. I really appreciate it.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Madam Chair.
    And I appreciate you all, your service to this country and 
to the House of Representatives in particular. You all have 
unique and different responsibilities.
    But I really want to talk to our Sergeant at Arms. I 
appreciate you coming up in our meeting yesterday. It was very 
enlightening in regard to the discussion as it relates to the 
Capitol Police. And you know my background in law enforcement. 
And I want to make sure that the Capitol Police Board has the 
authority and has the ability to do what they need to do, but 
more importantly, I want to make sure that the Chief of Police 
is accountable to you all and through oversight of this 
committee to make sure that we get the best of the best. You 
know, I think that and what I worry about in my conversations 
with some of the officers is that they feel underappreciated. 
You know, they are not security guards; they are Capitol 
Police. And it is a huge responsibility to keep this campus and 
all the Members safe. And I know we are on the same page when 
it comes to that.
    But all I can do is encourage the Capitol Police Board to 
make sure that they hold the Chief of Police accountable 
because we talked about a numerous number of issues yesterday, 
everything from, you know, training, experience, the things 
that are important to the rank and file because, you know, they 
want to do a great job. Most of our police officers across this 
country and, more importantly, right here in the Capitol, 
really want to do a good job. And they want to be proud of the 
job that they do. They want to be proud of the agency they 
serve with and those that serve with them.
    So we need to do everything, and I think the chairman is on 
the right track by holding the meeting that we had with the 
Chief last week or the week before, I guess. It all runs 
together, Madam Chair. But it is really important to us because 
we are the community. The Members are the community that they 
are sworn to protect. Obviously, the citizens that come to the 
Capitol, but we are the constituency, and we want to make sure 
that we have a voice in that.
    And I think, by you coming and sitting down and talking 
with Members, and I know you have done that in the past, you 
have other meetings we have had, but you need to have all the 
information at your fingertips. And I know that you have all 
had issues from time to time. And I have no doubt that you are 
going to rectify that, at least by our conversation yesterday. 
And if you want to add anything as it relates to the Capitol 
Police.
    But I just want to just reiterate that, you know, I have 
the utmost respect for those that wear the uniform in law 
enforcement to protect us no matter where you are in this great 
country. And you talk about the district offices. It is so 
important that they have a good liaison with their local law 
enforcement agency because you are up here, and I am down in 
Florida. And the local law enforcement agency has the primary 
responsibility at that point to make sure that things go right. 
And they need help from time to time. But go right ahead.
    Mr. Irving. Thank you. Again, Congressman, I appreciate all 
of your time and attention to this. The committee has been so 
supportive. And going back to the chair's comments and Mr. 
Brady's comments, this committee has always been so responsive 
and supportive. Usually, before we make an attempt to implement 
a security measure which has a tendency of affecting the 
business processes of the institution, I come to you first 
because there is a fair chance your phone will ring if we have 
done something to change a certain business process which has a 
tendency of coming down on convenience or lack thereof.
    Having said that, your door has always been open. I 
appreciate all the time that you and have I spent together 
talking over these issues. Because of your background, you know 
all of these issues. And I appreciate your support of the 
Capitol Police Board and the Capitol Police.
    I do want to assure you that the Capitol Police Board is 
conducting robust oversight of the Chief and of the Capitol 
Police. They do a fantastic job each and every day. They have a 
tough job. We hear some things every now and then in the press. 
But, frankly, there are thousands of contacts with the public, 
with Members each and every day, and they do a fantastic job. 
And my hat's off to the men and women of the Capitol Police, 
but more importantly, I thank you for your leadership, your 
oversight, and your support.
    And we will certainly continue to keep you posted as we 
work all the issues that we addressed yesterday, certainly 
things that have been out there. But, again, I want to thank 
you for all of your support.
    Mr. Nugent. I appreciate that.
    And, Madam Chair, I am out of time, but I would hope that 
we have a followup meeting with the Capitol Police, with 
yourself, or with the Chief to see where they are in regards to 
the things that we have talked about. And I know that the 
Sergeant at Arms has talked about where are we at in regards 
to, are those things getting fixed to our satisfaction? And I 
know Mr. Brady feels the same way. I am not going to put words 
in his mouth. But we want to know. And I think that is a fair 
thing for us to do. And I appreciate your indulgence. Thank 
you.
    The Chairman. Thank you very much. Mr. Davis.
    Mr. Davis. Thank you, Madam Chairman.
    And I would like to associate myself with many of the 
comments that my colleague Mr. Nugent mentioned about our 
concerns. We had a great meeting with Mr. Irving just yesterday 
and talked about many of these issues.
    Thank you for your service. Thanks for what you are doing 
to address some of these issues.
    Thank you all for being a part of this great institution.
    I come from a different perspective. I spent 16 years as a 
district office staffer, so I have a vested interest in 
district office issues. And I know many of the issues that each 
of you address relate to district offices. And there are some 
differences between district offices and what we see here in 
D.C. And sometimes I think that the district offices and what 
they have access to may be taken for granted because of the 
access that we have on this campus to many different issues, 
that security being one of them.
    So I am glad, Mr. Irving, that there has been a focus on 
district office security issues. And I look forward to working 
with you with my perspective if there are any issues that you 
think I can be helpful on in the future too.
    One issue, I will start with you, Mr. Irving, and this 
actually, unfortunately, relates back here. It is something you 
mentioned in your testimony about the Garage Security 
Enhancement Project. Would the completion of that project 
require any different procedures for Members and staff in your 
opinion?
    Mr. Irving. There will be some changes. And I am working 
very carefully with the committee and leadership on that. We 
will be restricting, or the goal ultimately is to restrict the 
number of access points so that everyone can undergo security 
screening. So that will certainly require, you know, assistance 
from the committee and leadership to get us to that point.
    There will be some conveniences that will be dispensed 
with. But I will say that we will do everything we can to 
ensure that Members have access to the doors that they require. 
We will probably be undergoing either a prox card or a 
biometric type of entrance system so that Members can utilize 
more doors. As you know, Members do not undergo magnetometer 
screening whereas staff and visitors do. It will probably be a 
very similar protocol. But the goal is for everyone to have 
that 100 percent screening.
    Mr. Davis. Thank you. You and I would agree that project is 
critical.
    Mr. Irving. Yes. And I appreciate so much the committee's 
support on that project and mail hoods. And I could go on and 
on on a lot of the initiatives that I have enumerated in my 
testimony. This committee has been so supportive. So thank you.
    And I know that we will have to work through some of the 
details of that initiative because of the access point closures 
and routings and what have you. But we will do our best to make 
sure that the business process of the institution is not 
affected.
    Mr. Davis. Thank you. Thanks very much, Paul.
    Mr. Cassidy, back to my district office issues. Obviously, 
you know, you and I have talked about many different district 
office issues. And I am happy to be someone that can offer a 
different perspective on many of the issues. And I know that 
one issue that we have worked on has been district office 
connectivity. I can tell you firsthand the connectivity issues 
at a district office are vastly different than what we can 
experience here on this campus.
    We have been very active as a committee and been concerned 
with these connections. And I know there has been an initiative 
that you have been working on and CAO has been working on. Can 
you kind of give us an update on how that is going? Anything 
the committee can do to be of assistance?
    Mr. Cassidy. Certainly, Congressman. The Committee has 
already been very helpful on this project.
    The issue, in a nutshell, for those who aren't familiar 
with it, is, how do we connect the computer systems in 800 or 
900 district offices with the House network back here? For many 
years now, we have done that by providing between Washington 
and a Member's principal district office a high speed data link 
called an MPLS circuit. And then, from the district, the main 
district office to any other district offices that a Member may 
have, they are responsible for providing that connection. But 
the House connects the primary office back to here.
    The challenge around that is that in the years since that 
technical approach was adopted, the demand for data to move 
back and forth through this pipeline, if you will, has exploded 
as a result of video and social media and all of the things 
with which the committee is familiar. With that in mind, what 
we have been looking at is an alternative to the MPLS circuits 
we use today, which have a maximum flow-through rate of 3 
megabytes, if you will. We have been looking at something 
called VPN, which is an Internet connectivity.
    Mr. Davis. Which some offices use now.
    Mr. Cassidy. Which many offices, most offices in fact, use 
to connect their primary office to any satellite offices, and a 
small number use to connect their D.C. offices to here. That is 
a good news/bad news story. The good news in the first instance 
is that it is a lot less expensive to use VPN than it is to use 
MPLS. And, secondly, the VPN technology has a much higher 
ceiling, if you will, on the amount and the speed with which 
data can move back and forth.
    But it also has a lower floor. So with the classic 
traditional MPLS model we have been using, you get 3 megabytes; 
you don't any get any more than that, and you don't get any 
less.
    With VPN, you get a much higher ceiling, but 3 isn't 
guaranteed. And depending on the time of day, depending on the 
makeup of the network in your district, the number of 
customers, the demand and such, you may find slower speeds.
    What we have done in the last several months, with the 
strong support of this committee, is to begin connecting up 
Members' primary district offices. We are up over 70 now. The 
majority of those are freshmen, but they are not all freshmen. 
Several members of this committee participated in a pilot 
project around this. And we now have a fairly robust plan, 
which we will share with the committee shortly, to take that 
number up around 400. As it happens, there are a handful of 
Members in certain parts of the country--the islands are a good 
example of that, but there are actually some rural areas in 
this country--where the current MPLS approach actually is the 
best. So we are not going to mandate a move to VPN, but we are 
going to facilitate a move to VPN, and we are going to do it as 
quickly as we can possibly get it done.
    We learned a lot in the pilot. And the staff of this 
committee was an integral part of that process. We hope to put 
those lessons learned to use. We may find out--we actually have 
an RFP that was on the street recently, just closed, seeking 
proposals to provide this service--we may find out we have got 
some hybrid approaches that employ both of those technologies 
in particular places, and so you get the best of both.
    But we are going to work very closely with this committee 
going forward, as we have up to this date, and try to make this 
transition as expeditious as we can. But it is probably another 
year or two before we get this thing rolled out to all of the 
offices that want it. But we are moving--in fact, we are ahead 
of schedule right now on that rollout.
    Mr. Davis. Thank you.
    My time has expired.
    The Chairman. Mrs. Comstock.
    Mrs. Comstock. Madam Chairman, I don't have any questions.
    The Chairman. Okay.
    Mr. Walker.
    Mr. Walker. Thank you, Madam Chairman.
    First of all, let me say thank you guys for being here. 
Even Sergeant at Arms Mr. Irving coming by yesterday and taking 
time to visit with us, I appreciate that. It meant a lot to us.
    I want to go back and talk about the partnering agencies 
from the Capitol Hill Police's perspective. Talk to me about 
the confidence in our response with the other agencies that we 
have taken in the aftermath of some of the drone stuff, some of 
the gyrocopter stuff. Can you give me a little briefing and get 
me caught up to speed as far as how you feel like you guys are 
doing there?
    Mr. Irving. Thank you, Congressman. We engaged our local, 
Federal, State partners in law enforcement on all of these 
issues. On the gyro issue in particular that you addressed, 
there are a number of working groups, airspace security working 
groups specifically, dealing with a number of Department of 
Homeland Security agencies as well as military and Department 
of Transportation, FAA, Secret Service. MPD is involved, and 
Metro Transit. You have got the Park Police, Pentagon Force 
Protection Agency. So there are a lot of local national capital 
region law enforcement partners that are engaged with the 
Capitol Police. The Chief enjoys a very good relationship with 
all of those other chiefs.
    And the Capitol Police Board, obviously, is attuned to all 
of those meetings and monitors those meetings. So I will tell 
that you there is considerable respect amongst all of the law 
enforcement for each other, not only in the law enforcement, 
domestic law enforcement perspective, policing perspective, but 
also in the intelligence perspective, intelligence-sharing 
perspective.
    Mr. Walker. And I love to hear the relational side is good 
and even working.
    Let me talk specifically about the technical aspect. And I 
believe I have got the date, if my memory serves me correctly, 
is January 2014, there was a completely new system put in for 
communications. We talked a little bit about the 
interoperability of it. You can talk about specifically the 
gyrocopter that day, but my larger concern is, is that 
functional? Do we do tests or drills on that? Are we sure that 
we have got an opportunity or really the potential to 
communicate across the board going to a frequency, whatever it 
is? Is there a plan in place that if there is, God forbid, a 
situation that we are able to utilize that to the max?
    Mr. Irving. Thank you, Congressman.
    On the communication front, the new radio modernization 
program has been working well, and is a tremendous success. 
There is interoperability. As we have discussed, 
interoperability is a combination of pre-event planning not 
only, you know, before something happens, but also, you know, 
merging that pre-event planning with the technology.
    From a technological perspective, the new radio 
modernization program can accomplish that. There is 
interoperability amongst all of the law enforcement entities in 
the national capital region. Training is always an issue in 
terms of time and expense. Capitol Police is working toward 
training with other law enforcement partners, though not as 
much as we would like.
    We can tell you, though, there is command level, there is 
communication almost daily between the command center, Capitol 
Police command center, Metro PD command centers, and the other 
multi-agency coordinating centers in the national capital 
region.
    Mr. Walker. So if something was to happen this afternoon, 
there would be a frequency or something that everybody is 
instructed to go to. The Capitol Hill Police is talking to 
agencies across the board. I mean, do we feel comfortable that 
that particular plan is in place?
    Mr. Irving. Yes, Congressman, very confident that, at the 
command center level, absolutely.
    Mr. Walker. Okay.
    Before my time expires, I want to bring Mr. Cassidy in this 
as well. A lot of times we are talking about the very physical 
threats. I want to touch on cybersecurity for just a moment 
there. Both of you guys can address this. It is a high priority 
for this committee, obviously, as it is for others. And I just 
want to talk about what are we taking proactive steps in 
regards to cybersecurity, and how do we see that possibly 
affecting us from this particular committee's perspective?
    Mr. Cassidy. Congressman, as you know, and as all the 
members of the committee know, we don't lack for high 
priorities in the IT area here in the House. We have a number 
of them. But there is no higher priority for us than 
cybersecurity. This is a target-rich environment. You have got 
10,000 or 11,000 Members and staff deployed in 800 or 900 
locations around the country. We have lots of devices, lots of 
programs, lots of systems, lots of flexibility that supports a 
pretty decentralized working style, if you will, here in the 
House.
    The danger is that, on any given day, at any given minute, 
any one of those people is likely clicking on something they 
shouldn't click on. And so that is a big challenge. And so what 
we have done to try to mitigate that, in addition to a number 
of technical approaches around secure configuration management 
and the like--
    Mr. Walker. When you say they are clicking on something 
they shouldn't be, obviously, we have a certain responsibility, 
Members and our staff. Can you be a little more specific when 
you say that that may put us a little more at risk?
    Mr. Cassidy. Certainly. For example, sir, phishing 
campaigns, which are known to all us, are campaigns in which 
someone pretending to be someone that you know sends you an 
email that looks just like you would expect an email to look 
like from that individual or that organization and asks you or 
offers to show you something, asks you to click on a link. If 
you click on that link, you have immediately put the House at 
risk.
    And so we have technological approaches to deal with that, 
but we also are working much harder in the last year or two on 
the education side. As you recall, we stiffened our password 
policies recently. We require longer passwords. You have to 
change them more frequently. You can't keep flipping back and 
forth between the last two or three passwords you have used, 
which I have done most of my adult life. We now require you to 
come up with truly new passwords.
    We produce a publication called ``Connected and Secured'' 
that goes out every single month. It goes out every single 
month trying to give people in the House suggestions around 
safe social media practices, email practices, and the like.
    Mr. Walker. I appreciate your work on that.
    Thank you, panel.
    Madam Chairman.
    The Chairman. Thank the gentleman very much.
    Are there any other questions from any of the members?
    Well, I just want to, again, thank all of the House 
officers for their participation today, their statements, and 
the answering of questions. Obviously, you have a very engaged 
Committee here with what is happening with the House officers. 
I looked at this as an opportunity to really make sure that the 
folks understood what this Speaker has done in appointing these 
individuals and how he really is such an institutionalist and 
believes in this institution and how we are all so committed in 
our common goals to make sure that this House runs effectively, 
efficiently, transparently, and safely in every way.
    As we look at all of the different challenges that the 
House faces, we look to all of you. Obviously, this Committee 
wants to ensure that you have the resources that you need and 
that we can help you in any way that we can to share our common 
goal.
    It looks like Mr. Cassidy would like it say one other thing 
as well. I certainly recognize you to say something.
    Mr. Cassidy. Thank you, Madam Chairman.
    I just want to take a moment if I could, a moment of 
privilege, if you will. Mention was made earlier about the work 
done by all of our staffs. But not enough has been said about 
the work done by your staffs. In particular, I want to point 
out, as everyone up there knows, but maybe not everyone in the 
room knows, our positions are thoroughly nonpartisan; our 
organizations are thoroughly nonpartisan. We serve the House 
equally. We work with this Committee equally.
    There isn't anybody in this room today who has worked 
harder or cared more or done more to facilitate our efforts in 
the CAO, and I hope I speak for my colleagues, than Kyle 
Anderson, the minority staff director of this committee. He has 
recently announced his intention to move on. And I just wanted 
to say personally how much I appreciate Kyle's contributions, 
his advice, his counsel, and the effort he has undertaken to 
help us do our jobs because, at the end of the of the day, our 
jobs are really about helping all of you do your jobs. And Kyle 
has been a terrific partner.
    The Chairman. I appreciate you saying that. Kyle is going 
to be missed. He is great. He really is. He is wonderful to 
work with.
    Mr. Brady. Now we need to get the double doors open so he 
can get his head out.
    The Chairman. All right. Well, we thank you all very, very 
much for your appearance today.
    I thank the Committee members as well for appearing.
    And, with this, the hearing will be adjourned.
    [Whereupon, at 3:26 p.m., the Committee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
</pre></body></html>
